Appendix A

■r/

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

JUL 07 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

RACHEL CROOK,

No. 20-56188

Plaintiff - Appellant,
v.

D.C. No. 5:20-cv-01277-DMG-SP
U.S. District Court for Central
California, Riverside___ ___

SHEA FIDUCIARY SERVICES; et al.,
MANDATE
Defendants - Appellees.

!

The judgment of this Co art, entered March 09, 2021, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rulb
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Nixon Antonio Callejas Morales
Deputy Clerk
'
Ninth Circuit Rule 27-7

V\ t

UNITED STATES COURT OF APPEALS
FOP THE NINTH CIRCUIT

FILED
JUN 29 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

RACHEL CROOK,
Plaintiff-Appel! ant,
v.

No.

20-56188

D.C. No.
5:20-cv-01277-DMG-SP
Central District of California,
Riverside

SHEA FIDUCIARY SERVICE S; et al.,
- ORDER - Defendants-Ap lellees.
Before: M. SMITH, BADE, and BUMATAY, Circuit Judges.
Appellant has filed a combined motion for reconsideration and motion for
reconsideration en banc (Docket Entry No. 13).
The motion for reconsideration is denied and the motion for reconsideration
en banc is denied on behalf of tie court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord.
6.11.
No further filings will be entertained in this closed case.

LAB/MOATT

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

MAR 9 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

RACHEL CROOK,
Plaintiff-Appellant,
v.

No.

20-56188

D.C. No.
5:20-cv-01277-DMG-SP
Central District of California,
Riverside

SHEA FIDUCIARY SERVICES; et al.,
ORDER_
Defendants-Appellees.
Before: M. SMITH, BADE, and BUMATAY, Circuit Judges.
The district court has denied appellant leave to proceed on appeal in forma
pauperis. See 28 U.S.C. § 1915(a). On January 13, 2021, this court ordered
appellant to explain in writing why this appeal should not be dismissed as
frivolous. See 28 U.S.C. § 1915(e)(2) (court shall dismiss case at any time, if court
determines it is frivolous or malicious).
Upon a review of the record, the response to the court’s January 13, 2021
order,und the openinglriieT received'on January‘8, 20217we conclude this appeal
is frivolous. We therefore deny appellant’s motions to proceed in forma pauperis
(Docket Entry Nos. 2 and 5) and dismiss this appeal as frivolous, pursuant to 28
U.S.C. § 1915(e)(2).
All other pending motions are denied as moot.
DISMISSED.
LAB/MOATT

Case 5:20-cv-01277-DMG-SP Document 35 Filed 10/22/20 Page 1 of 1 PagelD#:156

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
[ Case No.

CV 20-1277-DMG (SPx)

Date

! Page

; Title Rachel M. Crook v. Shea Fiduciary Servs., et ah

, Present: The Honorable

October 22, 2020
1 of 1

j DOLLY M. GEE, UNITED STATES DISTRICT JUDGE

KANE TIEN
Deputy Clerk

NOT REPORTED
Court Reporter

Attorneys Present for Plaintiff(s)
None Present

Attorneys Present for Defendant(s)
None Present

Proceedings: IN CHAMBERS— ORDER DENYING PLAINTIFF’S MOTION FOR
RECONSIDERATION [331
On September 8, 2020, the Court dismissed this action for lack of subject matter
jurisdiction. [Doc. # 32.] On September 28,2020, pro se Plaintiff Rachel M. Crook filed a Motion
for Reconsideration (“MTR”) of the Court’s Order. [Doc. # 33.]
Plaintiff has identified no “mistake, inadvertence, surprise, or excusable neglect” that
would justify relief from the Court’s dismissal order. Fed. R. Civ. P. 60(b)(1). Nor has she shown
“(a) a material difference in fact or law from that presented to the Court before such decision that
in the exercise of reasonable diligence could not have been known to the party moving for
reconsideration at the time of such decision, or (b) the emergence of new material facts or a change
of law occurring after the time of such decision, or (c) a manifest showing of a failure to consider
material facts presented to the Court before such decision.” C.D. Cal. L.R. 7-18.
Plaintiffs MTR cites to a variety of sources for the general proposition that state courts
are open to all. Butfederal courts are of limited jurisdiction and have “an independent obligation
to assure ourselves of our own jurisdiction” before proceeding to the substance of any claims.
Rosson v. Fitzgerald (In re Rosson), 545 F.3d 764, 769 n.5 (9th Cir. 2008). Plaintiff also now
contends that Defendants Shea Fiduciary Services and Robin J. Shea are state governmental actors,
MTR If 12, despite alleging in her Complaint that they are private corporate fiduciaries, Compl. fflf
4, 12-13, and providing no evidence or explanation for this claim, which is facially inaccurate. It
remains true, as it was when the Court issued its dismissal order, that Plaintiffs real estate fraud
claims do not arise under the Fourteenth Amendment or any other federal law. Plaintiffs MTR is
therefore DENIED. The October 30, 2020 hearing is VACATED.

IT IS SO ORDERED.

CV-90

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk KT

Case 5:20-cv-01277-DMG-SP Document 32 Filed 09/08/20 Page 1 of 2 PagelD#:134

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
, _Case No.

r_Date j September 8, 2020

; ED CV 20-1277-DMG (SPx)

I Title Rachel M. Crook v. Shea Fiduciary Servs., et ah

[Present: The Honorable

JS-6

Page I 1 of 2

* DOLLY M. GEE, UNITED STATES DISTRICT JUDGE

KANE TIEN
Deputy Clerk

NOT REPORTED
Court Reporter

Attorneys Present for Plaintiff(s)
None Present

Attorneys Present for Defendant(s)
None Present

Proceedings: IN CHAMBERS— ORDER DISMISSING ACTION WITHOUT
PREJUDICE FOR LACK OF SUBJECT MATTER JURISDICTION
Pro se Plaintiff Rachel M. Crook filed this action on June 25, 2020. Compl. [Doc. # 1].
On June 29, 2020, the Court issued an Order to Show Cause why the Court should not dismiss the
action for lack of subject matter jurisdiction. [Doc. # 8.] After the Court granted her an extension
to respond due to the COVID-19 pandemic and to allow her to attempt to obtain counsel, Plaintiff
responded on August 17, 2020. [Doc. # 30.]
Plaintiff appears to contend that the Court has both diversity and federal question
jurisdiction over the matter. See Compl. To give rise to a court’s diversity jurisdiction, a lawsuit
must place over $75,000 in controversy and concern parties that have complete diversity of
citizenship (i.e., are citizens of different states). 28 U.S.C. § 1332. Plaintiff alleges that
Defendants Robin J. Shea and Shea Fiduciary Services are California citizens. Compl. at
2-3.
Thus, there is no diversity of citizenship. In her Response, Plaintiff clarifies that she does not
know the citizenship of unnamed Doe Defendants. Response at 4. But diversity jurisdiction
requires complete diversity, ie., “each defendant must be a citizen of a different state from each
plaintiff.” In re Digimarc Corp, Derivative Litig., 549 F.3d 1223, 1234 (9th Cir. 2008). Plaintiff
and the named Defendants are non-diverse, so there is no diversity of citizenship regardless of the
citizenship of unnamed Doe Defendants.
For a court to have federal question jurisdiction over an action, the plaintiff in the action
must bring a claim that arises “out of the Constitution, laws, or treaties of the United States.” 28
U.S.C. § 1331. In her Complaint, Plaintiff claims that the Court has jurisdiction “underthe Seventh
Amendment and [Federal Rule of Civil Procedure 38].” Compl. at 8. Both the Seventh
Amendment and Rule 38 preserve a litigant’s right to a jury trial, U.S. Const. Amend. VII; Fed. R.
Civ. P. 38, but they do not independently create a cause of action. Plaintiff’s Complaint appears
to assert a real-estate-related fraud claim against Defendants, which is governed by state law. See
Compl. In her Response, Plaintiff cites a number of federal criminal law statutes that she alleges
CV-90

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk KT

Case 5:20-cv-01277-DMG-SP Document 32 Filed 09/08/20 Page 2 of 2 PagelD#:135

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No.

ED CV 20-1277-DMG (SPx)

[ Title 1 Rachel M. Crook v. Shea Fiduciary Servs., et al.

Date

September 8, 2020

T Page 2 of 2

Defendants have violated: 18 U.S.C. sections 876, 1341, 1343, and 1344; and 10 U.S.C. section
921. Response at 2. These criminal statutes do not provide a private civil cause of action. Plaintiff
also alleges violations of her rights under the Fourth, Ninth, Tenth, and Fourteenth Amendments
of the U.S. Constitution. These rights protect against governmental actions, and do not provide a
cause of action against private citizens. This case therefore does not allege any claim that arises
under federal law.
Accordingly, since the parties in this action are non-diverse, and the sole claim arises under
state law, the Court DISMISSES this action, without prejudice, for lack of subject matter
jurisdiction. Because subject matter jurisdiction was lacking, default should not have been entered
against Defendants Shea Fiduciary Services and Robin Jean Shea. The Court therefore sua sponte
sets aside the entry of default against these defendants and DENIES their motion to set aside
default [Doc. # 31] as moot. Plaintiffs motion for default judgment [Doc. # 29] also is DENIED
as moot. All dates and deadlines are VACATED.
IT IS SO ORDERED.

CV-90

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk KT

